OFFICE OF INSPECTOR GENERAL



Audit of the Inter-American
Foundation’s Financial
Statements for Fiscal Years 2005
and 2004
AUDIT REPORT NO. 0-IAF-06-002-C
November 14, 2005




WASHINGTON, DC

Office of Inspector General

November 14, 2005

MEMORANDUM

TO:                  IAF President and CEO, Amb. Larry L. Palmer

FROM:                Acting AIG/A, Joseph Farinella

SUBJECT:	            Report on Audit of the Inter-American Foundation’s Financial Statements for Fiscal
                     Years 2005 and 2004 (0-IAF-06-002-C)

Enclosed is the final report on the subject audit. We contracted with the independent certified
public accounting firm of Gardiner, Kamya & Associates, P.C. (GKA) to audit the financial
statements of the Inter-American Foundation as of September 30, 2005 and 2004 and for the years
then ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards; generally accepted auditing standards; Office of
Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial
Statements; and the Government Accountability Office/President’s Council on Integrity and
Efficiency Financial Audit Manual.

In its audit of the Inter-American Foundation (IAF), Gardiner, Kamya & Associates found;

• the financial statements were fairly presented, in all material respects, in conformity with U.S.
generally accepted accounting principles,

• IAF had effective internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations,

• IAF’s financial management systems substantially complied with the requirements of the
Federal Financial Management Improvement Act of 1996 (FFMIA), and

• no reportable noncompliance with laws and regulations it tested.

In connection with the audit contract, we reviewed GKA’s report and related documentation.
Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on IAF’s financial statements or internal control or on whether IAF’s financial
management systems substantially complied with FFMIA; or conclusions on compliance with
laws and regulations. GKA is responsible for the attached auditor's report dated October 26,
2005 and the conclusions expressed in it. However, our review disclosed no instances where
GKA did not comply, in all material respects, with applicable standards.


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
The report does not contain recommendations and IAF has elected to not formally comment on
the report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
GKA during the audit. If you have questions concerning this report, please contact Andrew
Katsaros at (202) 712-4902.
          Inter-American Foundation
          Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the
United States government, provides grants to grassroots organizations in Latin America
and the Caribbean. Created in 1969 as an experimental program, the IAF responds to
innovative, participatory and sustainable self-help development projects proposed by
grassroots groups and organizations that support them. It also encourages partnerships
among community organizations, businesses and local governments directed at
improving the quality of life for poor people and strengthening democratic practices. To
contribute to a better understanding of the development process, the IAF shares its
experiences and the lessons it has learned.

The Inter-American Foundation is governed by a nine-person board of directors
appointed by the president of the United States and confirmed by the U.S. Senate. Six
members are drawn from the private sector and three from the federal government. The
board is assisted by an advisory council. A president, appointed by the board, serves as
the Inter-American Foundation’s chief executive officer, managing a staff of 47
employees based in Arlington, Virginia. The IAF is organized into four offices;
Executive, which houses the Office of the President and General Counsel; External
Affairs; Operations, which houses Evaluation, Financial Management, General Services,
Human Resources and Information Management; and the Program Office.

I would like to review the state of the Inter-American Foundation and the unique
contribution we make in advancing the values and long-term foreign policy objectives of
the United States in its relationship with Latin America and the Caribbean.

I begin with the Congressional Declaration of Purpose for the IAF contained in its
enabling legislation dated December 30, 1969.

   “The future of freedom, security, and economic development in the Western
   Hemisphere rests on the realization that man is the foundation of all human progress.
   It is the purpose of this section to provide support for development activities designed
   to achieve conditions in the Western Hemisphere under which the dignity and the
   worth of each human person will be respected and under which all men will be
   afforded the opportunity to develop their potential, to seek through gainful and
   productive work the fulfillment of their aspirations for a better life, and to live in
   justice and peace. To this end, it shall be the purpose of the Foundation, primarily in
   cooperation with private, regional, and international organizations, to:
       •	 Strengthen the bonds of friendship and understanding among the peoples of
          this hemisphere.

       •	 Support self-help efforts designed to enlarge the opportunities for individual
          development.

       •	 Stimulate and assist effective and ever wider participation of the people in the
          development process.

       •	 Encourage the establishment and growth of democratic
          institutions, private and governmental, appropriate to the
          requirements of the individual sovereign nations of this
          hemisphere.”
For 35 years, the IAF has been a small but significant component of U.S. foreign
assistance. It has funded more than 4,500 development projects by responding to the self-
help efforts of the organized poor and the groups that directly support them. The IAF’s
experience has demonstrated clearly that, in terms of better living conditions, foreign aid
is most effective at the community level, where people shape their lives. In terms of
furthering the U.S. government’s long-term interest in productive relationships abroad,
development assistance works best when it supports solutions that come from the
communities affected by the tangible results. While effective national policies and sound
infrastructure are necessary to successful development, these alone are not sufficient.
People make changes and make them work. The IAF has been a pioneer in this
realization. Created as an alternative to government-to-government assistance, it has had
more experience with initiatives that mobilize ingenuity, energy and engagement at the
grassroots level than any other foreign assistance agency.

Projects funded are the core of the IAF’s development effort: to improve the quality of
life as measured by objective indicators such as increased income, job creation, better
nutrition and access to housing, education and clean water. Because these projects are
proposed by the people most involved, their chances for sustainability beyond the life of
IAF’s support are very good. The IAF’s rate of success in funding sustainable projects is
well documented by independent evaluations as well as by regular data collection,
verification and audits. IAF’s focus areas emerge from the stream of proposals it receives
and the fresh ideas they contain. These account for IAF’s productive history with
indigenous peoples and, more recently, for grants that support other disadvantaged
sectors, especially African-descendent communities, women and the handicapped.
Another current emphasis is transnational projects, funded in collaboration with U.S.-
based associations of migrants who contribute to the creation of productive enterprises
and jobs in their communities of origin.

Funded projects provide the lessons IAF communicates to students of foreign assistance
and to development professionals. In recent years, IAF’s dissemination of its experiences
has helped expand the application of its grassroots approach. One notable initiative is
RedEAmérica, a network of 53 Latin American and Caribbean corporations and



                                                                                        2
corporate foundations that have agreed to channel their own funding, and mobilize
additional resources from the business sector, toward grassroots initiatives. The network
now envisions a Global Fund capable of attracting funds for self-help development from
beyond the Western Hemisphere. Additionally, the IAF and the International Guarantee
Fund of Switzerland have created a fund for channeling loan capital to low-income
entrepreneurs in Central America, which may extend its reach in fiscal 2007.

In 2005, the IAF’s support for administration priorities in Latin America and the
Caribbean has included close collaboration with the Department of State and 25 other
U.S. government agencies on the Summit of the Americas, scheduled for November 2005
in Argentina. The IAF encouraged participation in the preparations for the event by
sponsoring the Eleventh Annual Inter-American Conference for Mayors and Local
Officials, the Second Inter-American Summit on Decentralization and Local/Regional
Governance, and the African Descendent Summit Forum, where participants signed
declarations to be presented at the Summit. Additionally, representatives of 10 IAF
grantees presented their point of view at the Organization of American States’ General
Assembly in Fort Lauderdale, Fla., to cabinet-level officials, including U.S. Secretary of
State Condoleezza Rice.

In order to streamline operations, lower costs and ensure compliance with OMB reporting
requirements, the IAF continued to outsource the following services to the Bureau of the
Public Debt (BPD): procurement, accounting, budget, Equal Employment Opportunity
and information technology support. Under a new inter-agency agreement, BPD’s Office
of Information Technology maintains a remote data center at the facility in Parkersburg,
West Virginia, for IAF contingencies and continuity of operations. The equipment
designated for the IAF can recover the Foundation’s infrastructure during an emergency
and provide IAF employees with continued access to e-mail communications. IAF’s
essential personnel now have laptops configured to access the network at the contingency
site. In October 2005, the IAF recertified and accredited additional enhancements made
to the network infrastructure and security, based on IAF policy; OMB Circular A1-130,
Appendix III; and NIST Special Publication 800-37, Guide for the Security Certification
and Accreditation of Federal Information Systems. This significant accomplishment
places IAF on a short list of federal micro-agencies with certification and accreditation.

The IAF is among the agencies supporting E-Gov. BPD has implemented the integration
with the Central Contractor Registration, the system used by suppliers as the sole
repository for pertinent data, including remittance information. Integration allows BPD
and the IAF to more efficiently maintain current data related to suppliers. BPD and IAF
completed the transfer from the Federal Financial System to the Oracle Federal
Financials platform, which provides real-time, user-friendly financial reports. Per the
Department of the Treasury’s migration plan submitted to GSA in fiscal 2004, in January
2005 the IAF adopted the U.S. government-wide E-Travel system, GovTrip, integrating
on-line booking and allowing travelers to attach receipts to their voucher.




                                                                                       3
I am pleased to introduce the IAF’s Fiscal 2005 financial statements, which reflect the
IAF’s quest to become increasingly innovative and independent while adhering to its core
principles.

The financial statements and performance results data are complete, reliable and in
accordance with the Office of Management and Budget (OMB) requirements and in
conformity with generally accepted accounting principles. The IAF has appropriate
management controls in place to ensure that all internal controls are operating in
accordance with applicable policies and procedures and are effective in meeting the
requirements imposed by Federal Managers’ Financial Integrity Act (FMFIA) and the
Federal Financial Management Improvement Act (FFMIA).

Signed:

/s/
Amb. Larry L. Palmer
President and CEO




                                                                                     4
                                               TABLE OF CONTENTS




                                                                                                Page No.
Management’s Discussion and Analysis (Overview) .............................................................. 1


Independent Auditors’ Report on Financial Statements ........................................................18 



Balance Sheets .................................................................................................................. 20 


Statements of Net Cost....................................................................................................... 21


Statements of Changes in Net Position ............................................................................... 22


Statements of Budgetary Resources.................................................................................... 23


Statements of Financing ..................................................................................................... 24


Notes to Financial Statements............................................................................................. 25


Independent Auditors’ Report on Internal Control ..............................................................37 


Independent Auditors’ Report on Compliance with Laws and Regulations ..........................39 





                                                                                                                            iii
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


                  MANAGEMENT DISCUSSION AND ANALYSIS 


The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency
efficient in its operations, innovative and effective in its grassroots and local development
programs. The IAF learns from its experience, and uses the lessons learned to improve
its own grantmaking decisions and to advance the knowledge and success of development
practitioners, donors, and policy makers.

Mission and Organizational Requirements

Congress created the IAF in 1969 to carry out the mission set forth in the legislation
quoted above on behalf of the American people.

The IAF strategic plan for 2003-2007 is based on four main institutional goals derived
from this statutory basis, 35 years of experience and the current context:

       Support the most promising and innovative means to foster sustainable grassroots
       and local development and economic independence.


       Foster communication, learning and reflective practice.


       Make the most of available resources (efficiency, counterpart).

       Be the preeminent organization in the areas of grassroots development and
       participatory democracy in Latin America and the Caribbean.

Central to the IAF's approach to development is its posture of responsiveness. IAF
neither designs nor implements projects. Rather, it responds with attentiveness, analysis,
and, when approved, grant funds for development ideas and projects designed by
community level organizations and local non-governmental organizations in Latin
America and the Caribbean. Listening to and supporting the best development ideas
coming from the grassroots is the most important way in which IAF achieves all four of
the goals assigned to it in the original legislation.

The IAF seeks to reflect the values it fosters. In both the programs it supports and its
internal processes, the following principles are essential: innovation, partnership, self-
sufficiency, democratic practices, and social responsibility.

The IAF carries out its work based on three main instruments: grant-making, results
measurement and dissemination, and learning activities.




                                                                                       1
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 



The Fiscal 2005 Accomplishments

In Fiscal 2005, the Inter-American Foundation received an appropriation of $17.8 million
for program and program support activities, which was supplemented by $6 million for
grants from the Social Progress Trust Fund, $75,000 from the IAF’s gift account and
$1.25 million in carry-over funds. The total budget was $25.35 million.

The IAF funds grassroots development in Latin American and the Caribbean by
responding to the proposals it receives and carefully selecting the best from its very large
pool. In-depth evaluations of selected projects complement normal reporting; the
information is made available to staff and to the development and academic communities.
During the first 10 months of fiscal 2005, IAF staff and grantee representatives shared at
70 events these and other experiences in development assistance, including the
implications of financial, technical and cultural flows from transnational communities
and the funding and learning potential of RedEAmérica, launched by the IAF in fiscal
2003.

Grants Funded in Fiscal 2005

In Fiscal 2005, the IAF funded 54 new grants and 33 grant supplements for a total
obligation of $14,618,294 of which $8,474,294 was in appropriated funds, $6,069,000 in
SPTF funds, and $75,000 in gift funds. These funding actions are divided among
primary program areas as follows:

                                           Number of New Grants
 Fiscal 2005 Primary Program Area                                          Amount
                                           and Grant Supplements
 Food Production/Agriculture                         25                    $ 5,355,319
 Business Development/Management                     18                      3,171,102
 Education/Training                                  19                      2,306,139
 Research and Dissemination                           4                        583,960
 Cultural Expression                                  4                        653,442
 Eco-development                                      5                        684,832
 Corporate Social Investment                         12                      1,863,500
 Fiscal 2005 Total IAF Funding                       87                    $14,618,294

Detailed below are the IAF’s accomplishments of its objectives for fiscal 2005. For ease
of reference the objectives are listed under the relevant goal from the original Strategic
Plan submitted, and the accomplishments follow the corresponding objective.




                                                                                      2
                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 


Accomplishment of the Goals and Objectives of the Fiscal 2005 Program

                                Strategic Plan Goal I: 

              Support the most promising and innovative means to foster 

           sustainable grassroots development and economic independence. 


Performance Goal 1.1: Fully implement a broader, more competitive and more
transparent selection process which takes full advantage of internal sectoral expertise.

Performance Measure. Changes to the selection process introduced in fiscal 2004 were
refined during fiscal 2005 when proposals received totaled more than 1,880. Despite the
unexpected influx, all proposals were evaluated against established criteria in the time
allotted. This review began with a reading by one country expert and one other staff
member with subject-matter expertise. More than 80 percent were rated by a second
subject-matter expert. Some 300 proposals merited closer consideration, and IAF
representatives visited 100 applicants. The top-ranked 51 proposals were further
discussed at open reviews; representatives relayed concerns and suggestions to the
prospective grantees for their response. Some applicants required a second visit. By mid­
summer senior management began reviewing all documentation for approval, and
proposals were then forwarded to Congress and the respective U.S. Embassies for
clearance.

To make the work flow more evenly in fiscal 2006 and reduce time spent in review,
IAF’s Office of Programs decided to eliminate the single annual deadline and evaluate
proposals throughout the next funding year. New software purchased in the fourth quarter
will allow applicants to apply on-line. The IAF is revising its call for proposals in an
effort to reduce the number of substandard submissions.

Performance Measure. The IAF funded 54 proposals (including five new cooperative
agreements funded through RedEAmérica) promising improvement in the quality of life
as measured by such indicators as increased income, job training and placement, better
nutrition and housing, and access to clean water. These include the following
representative examples:

Tukuypaj ($159,202 over four years) will expand its experimental program of
community-managed trout breeding and farming using lagoons in 41 Andean
communities in Bolivia, diversifying food production, developing the communities’
management capacity, improving family income and increasing trout consumption,
resulting in nutritional benefits, especially for children. (BO-494)

Fundación UÑATATAWI (FUNDAWI) ($195,272 over three years) will introduce and
consolidate the production and marketing of medicinal and aromatic plants to protect the
tropical forest ecology and increase the incomes of 258 families from eight communities
in the Caranavi province of La Paz, Bolivia. The grantee will develop a farmer-owned
and -managed enterprise involving a seedling nursery; infrastructure for processing and


                                                                                    3
                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 


storing dried leaves, teas and essential oils; and training in organic production
technologies and marketing. (BO-500)

Associação de Deficientes Físicos de Betim (ADEFIB) ($249,350 over two years) will
focus on protection of watersheds and the preservation of surface and ground water
sources in the municipality of Betim, Brazil; on the social and professional inclusion of
its 220 members, who are individuals with disabilities; and on job training and placement
for people with physical disabilities. (BR-826)

Empresa Cooperativa del Sur del Cauca (COSURCA) ($291,699 over two years) will
provide technical and financial services to 1,530 Colombian coffee and fruit (papaya and
lulo) farmers to renovate their farms, further their use of organic growing methods,
improve post-harvest coffee processing, and increase the volume of organic coffee
marketed through international Fair Trade channels, as well as increase fruit sales in
regional markets. (C0-503)

Cooperativa de la Federación de Productores, Campesinos y Micorempresarios
Azuanos Inc. (C-Feproca) ($142,151 over two years) will incubate at least 400 rural
and/or women-owned micro-enterprises through enterprise development training and
microcredit to 26 rural women’s associations, all members of C-Feproca’s affiliate
organization, the Federación de Productores, Campesinos y Microempresarios Azuanos,
in Azua de Compostela province in the Dominican Republic. (DR-330)

Federación de Cooperativas de Medianos y Pequeños Productores Agropecuarios De
El Salvador (FEDECOPPS) ($250,315 over two years) will conduct a pilot project to
strengthen organic agricultural production and create five small businesses to process and
market fruits and vegetables, improve food security, offering new economic opportunities
to young adults, increasing leadership opportunities for women and improving family
income. (ES-215)

Subcomité de Productores Ovicaprinos de Michoacán, A.C., (SPOM) ($400,000 over
four years) will further the consolidation of a regional goat-milk producers’ association,
develop a new system for collecting and processing milk, and begin production and sale
of value-added items such as cheese, flavored milk and candies. By improving milk
quality through technical assistance, training and providing marketing support, and by
entering into new sales arrangements, the grantee aims to increase the income of 2,000
member goat farmers in 25 municipalities in northern Michoacán, Mexico. (ME-476)

Cooperativa de Servicios Múltiples Tepeyac (Tepeyac) ($398,800 over three years) will
increase the income of dairy farmers by constructing a pasteurizing and processing plant,
offering technical and financial assistance to improve the quality and quantity of dairy
production and also strengthen the local dairy sector, and by providing support for
marketing activities. (NC-263)




                                                                                    4
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 



Fundación Baru Pro Desarrollo Socioeconómico de la Comunidad (FUNBARU)
($163,939 over two years) will work in Paja de Sombrero, Panama, with a community
organization that is introducing bamboo as an alternate source of income and a means to
preserve the environment. The grantee will directly assist with capacity-building,
investment capital for fixed assets and equipment, and marketing bamboo products while
the community organization becomes legally constituted. (PN-279)

Centro de Investigación, Capacitación, Asesoría y Promoción (CICAP) ($281,800 over
three years) will provide training, technical assistance and capital to 400 Peruvian
farmers in the Upper Zaña River Basin toward an economically and environmentally
sustainable management for the area’s bamboo forests and toward improving job
opportunities and income through micro-enterprises that process the bamboo. (PU-528)

Asociación para la Defensa Ecológica (DEECO) ($94,600 over two years) will provide
training, technical assistance and equipment for 360 women trash handlers as they
develop economic enterprises to increase their income from segregating solid waste for
recycling and composting. DEECO will also organize an education campaign to teach the
residents of Trujillo to separate organic and inorganic waste prior to collection. (PU-529)

 Una Casa un Sueño (UCUS) ($100,000 over two years) will provide training in home
construction, urban farming and group organization and will set up a fund to finance
urban agriculture activities for approximately 85 low-income residents of Villa del
Chancho, a poor Montevideo neighborhood. Residents will build at least 25 new homes
on land donated by the municipality. (UR-179)

Asociación de Productores de Leche de Paysandú (APLP) ($289,246 over three years)
will strengthen agricultural networks, develop the productive potential of Uruguayan
farm families through technical training and a revolving loan fund. In collaboration with
the regional, inter-sectoral Consejo Económico Social, the grantee will provide access to
sub-grants for proposals addressing health, education, infrastructure maintenance and
other community issues. (UR-180)

Agencia para el Desarrollo de la Pequeña Agroindustria en las Zonas Rurales de
Venezuela (Agendair) ($271,350 over three years) will work with La Fe y Pimpinela, an
enterprise owned and operated by small-scale producers of sugar cane, to develop four
collectively-owned sugar mills and at least three new products from sugar cane,
benefiting 200 families in the state of Portuguesa, Venezuela. (VZ-194)

Fundación para la Capacitación y Mejoramiento Social del Joven Torrense
(FUNCAMET) ($336,130 over three years) will train at least 200 youths in
entrepreneurship, integrate at least 100 producers in the collective production and
marketing of aloe in Venezuela and internationally, and construct a rustic hospitality
center, el Jardín de Aloe. Revenues will finance FUNCAMET’s future socio-economic
projects. (VZ-198)


                                                                                     5
                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 



Performance Goal 1.2: Use results of a feasibility study on non-grant financing
mechanisms to initiate select activities.

Performance Measure. Based on a feasibility study, the IAF and the International
Guarantee Fund (IGF), a nonprofit cooperative based in Switzerland, each contributed
$200,000 to form the Latin American International Guarantee Fund (LAIGF) in July
2004, to help qualifying organizations engaged in productive activities access credit. The
fund was fully committed in FY 2005 to guaranteeing $1 million in commercial bank
loans to borrowers in Central America.

Performance Goal 1.3: Continue to help and to draw attention to African descendants—
who comprise half the population living below the poverty line in Latin America and the
Caribbean.

Performance Measure. The IAF continues to be one of the leading development
institutions working with communities of African descendants in the Americas. During
fiscal 2005 staff and/or grantees participated in the following events:

    •	 The National Council of La Raza (NCLR), the Inter-Agency Consultation on
       Race in Latin America (IAC) and the Woodrow Wilson Center sponsored a
       multi-event seminar on Mexicans of African descent and a reception honoring
       their contribution to Mexican history and culture.
    •	 IAF contractors led a series of interviews, meetings and community diagnostic
       sessions designed to strengthen México Negro, an Afro-Mexican organization
       based in Oaxaca, and to identify potential project activities and community
       priorities.
    •	 The IAF sponsored the attendance of 10 participants at conferences on racial
       equality in Uruguay and Brazil.
    •	 African-descendants from Ecuador, Paraguay and Uruguay on an IAF-sponsored
       panel shared their experiences at the National Council of La Raza (NCLR)
       annual conference, attended by more than 6,000 Hispanic-Americans, and met
       with policy- makers, development practitioners and Afro-Latino youth leaders in
       Washington, D.C.
    •	 The IAF sponsored 17 young African-descendent participants in the Global Afro-
       Latino and Caribbean Initiative’s conference on the status of Afro-Latino
       organizations held in Argentina.
    •	 During February 2005, the IAF hosted Afro-Brazilian international visitors
       invited to the United States by the Department of State; this included a reception
       on Capitol Hill hosted by the Congressional Black Caucus, the Brazil
       Information Center and the Inter-American Dialogue.
    •	 The IAF sponsored the participation of five African-descendants in the
       International Seminar on Advancing Equity and Racial Inclusion hosted in
       Brasilia by the government of Brazil and sponsored by the Inter-American
       Development Bank.


                                                                                    6
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


    •	 The IAF was represented on a panel on the Millennium Development Goals at a
       regional conference of African-descendent organizations, local governments and
       multilateral organizations sponsored by grantee Mundo Afro in Montevideo.
    •	 IAF’s Office of External Affairs developed a brochure on IAF’s work with Latin
       Americans of African descent.
    •	 IAF provided grantee Mundo Afro resources to sponsor participants at planning
       events in preparation for the “Santiago +5” Latin American Regional Conference
       against Racism, to be held in Brazil in December 2005;
    •	 The IAF sponsored the participation of 22 African-descendent civil society
       representatives and government officials at the African-Descendent Civil Society
       Forum, held in San Jose, Costa Rica, Sept. 1-2 as part of the Summit of the
       Americas preparatory process. The event immediately followed the Afro
       Legislators conference at which IAF sponsored the participation of 10 African-
       descendent legislators and civil society leaders.
    •	 The IAF commissioned a survey of communities and organizations of African
       descendants in Mexico and Central America to help focus funding in this key
       area.
    •	 The IAF published a report on the conference “Leadership and Socio-Economic
       Development for Communities of African Descent in Latin America and the
       Caribbean Workshop,” held in Honduras in February 2004.

Performance Measure. Fundación Lann-Nobis, a member of RedEAmérica, is creating
a fund (expected to total at least $480,000) for financing self-help projects undertaken by
community-based Ecuadorians of African descent. The fund has attracted support from
multiple sources in Ecuador and abroad.

Performance Measure. The following 2005 projects funded in support of Performance
Goal 1.3 are characterized by leadership or beneficiaries of African descent:

100 Dimensão–Cooperativa de Coleta Seletiva e Reciclagem de Resíduos Sólidos com
Formação e Educação Ambiental (100 Dimensão) ($321,625 over two years), a
recyclers’ cooperative in the Federal District of Brasilia led by an Afro-Brazilian woman,
will strengthen its administrative and productive capacity, increase its members’ income,
develop activities to involve and benefit other community residents, and provide
assistance to other organizations of recyclers. (BR-823)

Associacão de Moradores do Conjunto Palmeira (ASMOCONP) ($225,000 over two
years) will provide vocational education and on-the-job training to 1,000 youths in
Fortaleza. Students will intern with almost 100 accredited local establishments and will
receive technical support and loans toward opening their own businesses. Participating
establishments will also have access to credit to invest in their economic activities. (BR­
824)

Associação dos Artesãos de Imperatriz (ASSARI) ($314,000 over three years) will
improve the income of approximately 400 families involved in handicraft production in


                                                                                     7
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


Imperatriz, Maranhão, Brazil, through applying new technologies, developing their
management skills and opening market opportunities. (BR-827)

Fundo Rotativo da Ação da Cidadania (CREDCIDADANIA) ($315,000 over two years)
will provide training to 400 low-income families in two rural communities in
Pernambuco, Brazil, and access to start-up and working capital through a loan fund that
each community will create and manage. CREDCIDADANIA will use a mobile office to
respond to the credit needs of entrepreneurs in remote locations. (BR-828)

Obras Sociais da Diocese de Imperatriz (OSDI) ($191,000 over three years) will
strengthen Casas Familiares Rurais (CFRs) in three municipalities of Maranhão. CFRs
are educational centers that allow rural students to alternate residence between home and
school. Direct beneficiaries are 270 youths who will be trained as community
development agents. The goal is to demonstrate the validity of the CFR model in
improving the quality of life of rural families and obtain long-term official support. (BR­
829)

Fundación Mujer y Familia Andina (FUNDAMYF) ($230,000 over three years) will
provide women of African descent in Esmeraldas, Ecuador, education and technical
assistance in preventive health practices, citizen rights and responsibilities and in
administering a savings and loan fund to finance their micro-enterprises. (EC-390)

Fundación para la Tecnología y el Desarrollo Latinoamericano Ecuatoriano (FTDE)
($220,030 over two years) provides training in alternative agricultural practices to 500
Ecuadorian families of African descent in 30 different communities in Esmeraldas.
Residents will also participate in activities that improve their networking, organizing,
social cohesion and collective problem-solving. (EC-391)

Fundación Agencia de Desarrollo Planificado (PLANDES) ($35,000 over one year)
will assess the feasibility of a social franchise enterprise in which Afro-Venezuelan
communities in up to four states will participate. The grantee will undertake a market
analysis to identify the most promising traditional products for domestic and international
sale; investigate the benefits of registering a brand name for the products and services
offered by the enterprise; and research alternative organizational structures to coordinate
production and marketing. (VZ-195)

Performance Goal 1.4: Continue to promote development efforts among indigenous
communities while focusing on their residents as citizens and not just as disempowered
ethnic groups.

Performance Measure. The IAF continued to support the efforts of indigenous peoples
through improved economic opportunities, public-private partnerships and recognition of
their rights. Funded initiatives included the construction of community museums to
heighten community identity and increase income; leadership development; and
improved production by indigenous artisans, especially women. In June 2005, the IAF


                                                                                     8
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


brought representatives of former grantee El Ceibo to Washington, D.C., to participate in
the Smithsonian Folklife Festival’s exhibit on culture and food. El Ceibo showcased its
history and multifaceted grassroots development approach; it began serving cacao
producers in the late 1970s and gradually evolved into an agro-enterprise whose sales of
beans and assorted chocolate products gross $2 million a year.

An IAF representative has given presentations on the Andean region at a Georgetown
University conference on indigenous development in Peru and Bolivia; at a workshop of
the World Bank’s International Finance Program on Grassroots Business Organizations;
and at the Foreign Service Institute on the history of the indigenous movements in the
Andes.

Performance Measure. Representative grants relevant to Performance Goal 1.4 follow:

El Ceibal Asociación Civil (El Ceibal) ($109,000 over three years) will strengthen and
consolidate six organized clusters of rural artisans, mostly indigenous women, in the
provinces of Santiago del Estero and Tucumán, Argentina, into an association of
weavers. The artisans will increase household income, recover ancestral techniques and
designs, thus acquiring a renewed sense of cultural identity. (AR-339)

Asociación de Artesanos Andinos (AAA) ($186,325 over three years) will revive and
further develop traditional weaving techniques and designs to increase the skills, income
and cultural pride of 500 male and female indigenous Bolivian weavers. The project
focuses on strengthening artisan organizations in 34 communities; improving,
diversifying and expanding production; and formulating an effective local marketing
strategy. (BO-497)

Consejo de Desarrollo de Sector Social de la Economía Regional de Intibucá
(CODESSE-Intibucá) ($173,742 over three years) will strengthen 12 worker-owned
enterprises selected from among its member businesses, and, in the process, its own
institutional capacity as well as its credibility in representing the interest of its members,
primarily of Lenca Indian origin, in local and departmental policy venues in Intibucá,
Honduras. (HO-239)

Organización de Ejidos Productores Forestales de la Zona Maya (OEPFZM)
($395,000 over three years) will provide training and technical assistance to associations
in the state of Quintana Roo, Mexico, that process and market non-timber forest products,
with emphasis on gum and honey. The program aims to strengthen the associations and
increase income while preserving natural resources. Approximately 450 Mayan families
are expected to directly benefit from better prices for traditional agricultural goods in
niche markets. (ME-477)

Miel Solidaria Campesina, A.C. (MISOCA) ($399,500 over four years) will provide
training and technical assistance to 200 small-scale, primarily indigenous beekeepers and
their producer associations in the states of Veracruz, Puebla, Guerrero and Oaxaca,


                                                                                        9
                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


Mexico. The program will include participatory planning and evaluation activities, the
development of a new training center equipped with accessible educational materials, a
market study, and a fund for productive projects. The grantee aims to improve
beekeepers’ technical skills, increase their productive capacity and sales, and strengthen
their associations. (ME-478)

Asociación Minga-Peru (Minga-Peru) ($75,000 over 18 months) will strengthen its
network of rural women who use training, economic projects and radio programs to
promote gender equity, income-generation and preventive health practice in 55
indigenous Peruvian communities on the banks of Marañon and Tigre tributaries of the
Amazon River. The communications activities will reach 30,000 women in the riverside
communities. (PU-527)

Asociación Cultural Ayllu Yupaychay (YUPAY) ($330,000 over three years) will
design, apply and evaluate a more appropriate methodology for teaching indigenous
children and youths in remote Andean highland communities of Cuzco, Peru.
Approximately 360 children in 12 communities will participate. (PU-533)


                              Strategic Plan Goal II: 

                    Communication, learning and reflective practice. 


Performance Goal 2.1: Work with RedEAmérica toward standardizing information
collection and analysis.

Performance Measure. RedEAmérica members drafted a definition of grassroots
development and funding principles and a standardized budget format and all 53
corporate foundation and company members unanimously accepted both. They also
standardized results measurements for all projects funded with community organizations.
Members initiated creation of a databank with information on all projects funded through
the network.

Performance Goal 2.2: Use a separate unit within the Office of Operations to maximize
information sharing with the IAF’s automated grant evaluation and management system,
develop greater internal capacity to analyze data, and conduct more in-depth inquiries.

Performance Measure. Office of Evaluation staff participated in the proposal reviews
by identifying learning possibilities and selecting performance indicators for each project.
IAF representatives and data verifiers developed a closer working relationship, resulting
in more cooperation and information sharing. The Office of Evaluation also improved the
format and distribution of its monthly newsletter summarizing verified grantee
accomplishments.

Performance Measure. The Getulio Vargas Foundation, a Brazilian research institution,
evaluated a group of 10 projects randomly selected from those whose funding expired


                                                                                     10 

                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 


within the two previous years. Findings and recommendations were discussed among
staff. FGV shared its findings with IAF staff in October, confirming that these projects
had achieved most of their goals. These preliminary findings included the following
relevant to sustainability:

         •	 Community participation in project design is a key factor in sustainability.
         •	 Projects inserted in a broader local development strategy, including
            partnerships with local authorities, businesses and other community forces,
            had a greater chance of becoming sustainable.
         •	 For donors, “knowing when to let go” is critically important.
         •	 Leadership from outside the community can be constructive, but only when
            the expertise serves to empower local leaders.
         •	 Short-term tangible results contribute to long-term sustainability.
         •	 Projects should be seen in the context of broader policy opportunities.

Evaluations of another 10 randomly selected projects were completed in fiscal 2005 and a
summary of findings will be shared with IAF staff.

Performance Goal 2.3: Present cutting-edge development analysis that encourages
additional resources to flow to Latin America and the Caribbean.

Performance Measure. In fiscal 2004 the IAF commissioned a major study on the
significance of corporate social responsibility in Latin America by scholar and author
Lester Salamon of the Johns Hopkins University. Prof. Salamon has finished the
literature review and the detailed survey of IAF files relating to corporate social
responsibility and in summer 2005 conducted extensive interviews in four Latin
American countries. Delays in the award of the contract to Dr. Salamon made necessary
the postponement of the dissemination of his findings. This Performance Measure is
included in the 2006 Program Plan.

Performance Measure. In fiscal 2004 the IAF contracted the Chilean Fundación para la
Superación de la Pobreza to conduct a multi-country study on the role of development
assistance in the creation of public spaces for community action. In fiscal 2005 the
researchers shared their findings at seminars at the University of Texas-Austin, the
Woodrow Wilson International Center for Scholars in Washington, at the Latin American
meeting of the International Society for Third-Sector Research in Lima, Peru, at the Latin
American Conference of Mayors and Municipal Officials in Miami, and at the Second
Summit of Decentralization and Local/Regional Governance in San Salvador. The final
report will be posted on the IAF Web site.

Performance Measure. The following grant was funded in support of Performance Goal
2.3:

VINCULAR Responsabilidad Social Empresarial (VINCULAR) ($150,000 over one
year) will advance the Inter-American Corporate Social Responsibility (IACSR) Network


                                                                                   11 

                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 


by engaging approximately 1,500 business leaders and community groups in training
seminars focused on corporate social responsibility (CSR). Seminars will coincide with
CSR conferences in Sao Paulo, Brazil, and Santiago, Chile. The grantee will organize
additional meetings and provide Web page support. (LA-168)


                              Strategic Plan Goal III: 

            Make the most of available resources (efficiency, counterpart). 


Performance Goal 3.1: Collaborate with a broader range of donors.

Performance Measure. During 2005, the IAF began to disseminate to the U.S. donor
community the IRS ruling that the IAF meets the expenditure responsibility reporting
requirements, thus opening the door to additional resources for IAF-vetted projects. IAF
staff and board representatives visited Texas foundations interested in funding
community groups in Mexico and elsewhere in Latin America, and contacted foundations
in the Mississippi Delta region interested in supporting U.S. immigrant organizations
with transnational connections. With the Tower Center for Public Policy at Southern
Methodist University, the IAF is planning a gathering of donors for early 2006 in Dallas.

Performance Goal 3.2: Increase the number of grants made by RedEAmérica.

Performance Measure. RedEAmérica’s grant program was launched through a series of
cooperative agreements with individual members requiring they match or double IAF
funding awarded in fiscal 2003, 2004 and 2005. Additionally, in fiscal 2005, the
cooperative agreements prompted the formation of several local and national funds that
mobilized funds from third parties. In 2005, IAF’s funding and funding mobilized by
RedEAmérica members financed 319 small grants supporting the self-help efforts of
grassroots organizations.

RedEAmérica members matching IAF’s funding were Colombia’s Fundación
Empresarios por la Educación with $146,000; Dibujando un Mañana of Mexico with
$43,500 and another $40,000 from other corporate sources; and Coser Foundation of
Brazil with $70,000. Fundación Arcor, Telefónica Chile, Corporación Acción RSE
(Colombia), Corporación Sociedad Activa (Chile) and Fundación Lann-Nobis (Ecuador)
reported $2,622,000, or double the IAF’s contribution, had been committed to their
programs.

Performance Goal 3.3: Identify and support evolving relationships between immigrants
to the U.S. and their home communities in Latin America and the Caribbean.

Performance Measure. Throughout fiscal 2005, members of the IAF’s transnational
committee met with immigrant leaders in several U.S. cities and visited counterpart
organizations and projects in migrant-sending communities in Latin America. A brief
document was developed to provide guidance to migrant organizations interested in


                                                                                  12 

                       INTER-AMERICAN FOUNDATION 

                 MANAGEMENT DISCUSSION AND ANALYSIS 

                 For the Years Ended September 30, 2005 and 2004 


submitting transnational proposals to the IAF. Outreach efforts have resulted in a
noticeable increase in inquiries from transnational organizations.

Performance Measure. Fiscal 2005 grants with transnational implications follow:

Centro Waaponí (Waaponi) ($297,160 over two years) will work with 400 Ecuadorian
adolescents and young adults with at least one parent who has migrated in search of
work. Participants will learn to confront problems, manage conflict, set life goals and
become active in their communities. (EC-392)

Fundación Salvadoreña para la Reconstrucción y el Desarrollo (REDES) ($459,000
over four years) will assist 18 communities with high migration rates in the departments
of Cabañas, Cuscatlán, San Vicente and La Paz through an economic development
program providing grants for six community projects to be matched by contributions
from hometown associations. Loans and sub-grants will be awarded to 240 families for
microbusinesses, including 90 pilot projects managed by young adults. (ES-217)

Maquiladora Dignidad y Justicia (MDJ) (59,300 for two years) will strengthen a
worker-run garment enterprise on the U.S.-Mexican border, developing management and
production skills as well as market opportunities and expanding its labor force. (ME-475)

Performance Measure. The IAF has identified community foundations along the U.S.­
Mexico border as an area of interest and has designated the deputy vice president for
programs to advance it. In fiscal 2005, the IAF funded a visit of representatives of
community foundation grantees to the Fundación Internacional de la Comunidad (FIC) in
Tijuana, Mexico, which has designed and piloted a call for proposals and competitive
process and has awarded 18 grants to community groups in five municipalities. Based on
this success, it received $50,000 from the Secretary for Social Development of Baja
California for a loan fund. Under the fiscal 2004 grant LA-164, representatives of four
border foundation grantees attended training in community deliberation and are applying
the methodology. In December, the IAF provided three travel grants to Mexican
community foundation staff who, accompanied by the IAF’s deputy vice president for
programs, shared experiences on starting foundations, garnering support, governance,
fundraising and other topics at the First International Symposium on Community
Foundations in Berlin.




                                                                                  13 

                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 



                              Strategic Plan Goal IV: 

        Be the preeminent organization in the areas of grassroots development 

          and participatory democracy in Latin America and the Caribbean. 


Performance Goal 4.1: Revise the Grassroots Development Framework to reflect further
work on the “intangible” results of IAF funding.

Performance Measure. The Office of Evaluation worked with data verifiers and IAF
program staff at the annual conference of data verifiers in the Dominican Republic to
revise indicators of intangible grant results, such as “leadership,” which now includes
“the capacity to facilitate and negotiate actions for collective interests.” New indicators
such as “trust in the organization” and the capacity to “concert” were added to the GDF.
For all indicators, a new electronic table for recording and reporting information was
designed. These new GDF elements will be reflected in a manual to be applied by the
next fiscal year.

Performance Goal 4.2: Broaden and deepen dialogue with other development experts
and practitioners studying democracy and the grassroots approach.

Performance Measure. In 2005 IAF representatives explained the connection between
grassroots democracy and sustained grassroots development staff at the Mexican Center
for Philanthropy (CEMEFI), the World Affairs Conference at the University of Colorado,
Boulder, Georgetown University’s School of Foreign Service, American University
School of International Affairs, the World Bank, the International Youth Foundation, and
the annual conferences of the League of United Latin American Citizens and the National
Council of La Raza, among other venues. The IAF is collaborating with the United
Nations Development Programme’s initiative on community dialogues and with other
donors focused on the capacity for self governance as the lasting impact of development
projects. The IAF co-sponsored a major conference on local development at the
University of Texas at Austin and at the Woodrow Wilson Center. IAF’s staff made
related presentations to USAID, Canadian International Development Agency and the
Organization of American States.

In 2005, IAF’s Office of External Affairs received considerable response to Grassroots
Development 2004 (which, because of technical difficulties, had appeared later in fiscal
2004 than originally anticipated). Readers from as far away as India and Bangladesh
described Patrick Breslin’s article “Thinking Outside Newton’s Box: Metaphors for
Grassroots Development” as “provocative,” “fascinating” and “excellent.” It is being
used in courses at American University and California State Polytechnic University and
circulated through a variety of development agencies.

Grassroots Development 2005 was printed and distributed in English and Spanish in
August 2005; pdf and html files in Portuguese will be posted by late September. The
2005 journal features a section on the IAF’s start-up under Bill Dyal, IAF president from


                                                                                    14 

                        INTER-AMERICAN FOUNDATION 

                  MANAGEMENT DISCUSSION AND ANALYSIS 

                  For the Years Ended September 30, 2005 and 2004 


1971 to 1980, who tested and then nurtured the concepts of responsiveness and
participatory self-help that have guided the IAF’s funding ever since. Profiled in the
journal are two organizations supported during the Dyal years, the Bosconia Program in
Colombia and Manos del Uruguay, both still in operation. The journal also examines a
grant 25 years ago to indigenous Guarani in Misiones, Argentina, and looks at current
grantees offering job placement to Venezuelans living with HIV/AIDS, water services to
rural Hondurans and micro-loans to Ecuadorian women. Other items covered include an
IAF-co-sponsored series on Mexicans of African descent, a group which has since
attracted international attention, and the contribution of two late grassroots leaders to the
success of the Bolivian chocolate cooperative El Ceibo, a former grantee.

Copies of both the 2005 and 2006 issues were recently requested for use this fall at
California State Polytechnic University. Among comments received on the latest journal
was one from Charles Frankel of Honolulu: “I get a lot of publications, many of which I
merely thumb through. But I gave Grassroots Development a good read because of the
interesting articles and fine photos… Grassroots Development was a good antidote for
Collapse, by Jared Diamond, a great book which shows how we are environmentally
destroying the world. You give examples of how poor peoples are helping to save the
world.”


             Identification of Key Factors that Could Affect Achievement
                            of General Goals and Objectives

The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health
problems, weather and natural disasters, fragile agriculturally, and unstable politically.
International phenomena such as markets, wars, and foreign investment also may affect
planned activities. Yet only rarely do IAF-funded projects fail as a result of such factors.




                                                                                      15 

                   INTER-AMERICAN FOUNDATION 

       ANALYSIS OF FINANCIAL STATEMENTS AND STEWARDSHIP 

     INFORMATION SYTEMS, CONTROLS, AND LEGAL COMPLIANCE 

             For the Years Ended September 30, 2005 and 2004 



                              Net Cost of Core Functions 


The activity reported in the Statement of Net Cost reflects the resources used by the IAF
during the year. Program costs of $26,676,999 reflected an increase of $2,191,783 in
resources used from the Fiscal 2004 amount of $24,485,216.

Personnel compensation and benefits decreased from $4,550,138 in Fiscal 2004 to
$4,463,293 in Fiscal 2005, reflecting a decrease of $86,845. In Fiscal 2005, program-
related Contractual Services used $3,354,937 of IAF resources. The difference of
$591,422 from Fiscal 2004, which reported $3,946,359 in resources used, reflects a
decrease of approximately 14.98 percent. See pie chart below:




               FY05 NET COST OF IAF CORE FUNCTIONS
                              Operating
                              Services            Personnel
        Other Program           4%                  15%
          Activities
            15%
                                                          Rent
                                                          2%




                                Grants
                                 64%




                                                                                  16 

                   INTER-AMERICAN FOUNDATION 

       ANALYSIS OF FINANCIAL STATEMENTS AND STEWARDSHIP 

     INFORMATION SYTEMS, CONTROLS, AND LEGAL COMPLIANCE 

             For the Years Ended September 30, 2005 and 2004 


                           Fund Balance with U.S. Treasury 


Total resources available from the U.S. Treasury and other financing sources for Fiscal
2005 and 2004 were $36,606,103 and $41,597,956, respectively. The difference of
$4,991,853 is due to a net decrease in the Social Progress Trust Fund (SPTF) collections
in FY-05 and a cancellation of $772,795 in Fiscal 1999/2000 appropriated funds, which
expired in FY-05. The SPTF agreement was amended during Fiscal 2002 to provide all
remaining funds to the IAF until they are exhausted, in approximately 15 years. See Note
One in the Financial Statements for funding source and Note Seven for the end-of-year
net position.

                             Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the
statements have been prepared from the books and records of the entity in accordance
with the formats prescribed by the Office of Management and Budget, the statements are
in addition to the financial reports used to monitor and control budgetary resources which
are prepared from the same books and records.




                                                                                   17 

               Independent Auditors’ Report on Financial Statements


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.

We have audited the accompanying Balance Sheet of the Inter-American Foundation
(IAF), a U.S. Government Corporation, as of September 30, 2005 and 2004, and the
related Statements of Net Cost, Changes in Net Position, Budgetary Resources and
Financing for the years then ended. These financial statements are the responsibility of
the management of the IAF. Our responsibility is to express an opinion on these financial
statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and the Office of Management and Budget Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing
the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides
a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the IAF as of September 30, 2005 and 2004, and its net
costs, changes in net position, budgetary resources, and the reconciliation of budgetary
obligations to net cost for the years then ended in conformity with generally accepted
accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial
statements referred to in the first paragraph of this report as a whole. The information
presented in IAF Management’s Discussion and Analysis (Overview) section is not a
required part of the financial statements but is supplementary information required by
OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements. Although
we have read the information presented, such information has not been subjected to the
auditing procedures applied in the audits of the financial statements and, accordingly, we
express no opinion on it.

                                                                                    18 

In accordance with Government Auditing Standards, we have also issued reports dated
October 26, 2005 on our consideration of the IAF's internal control over financial
reporting, and on our tests of its compliance with certain provisions of applicable laws
and regulations. These reports are an integral part of an audit performed in accordance
with Government Auditing Standards, and, in considering the results of the audit, these
reports should be read in conjunction with this report.

/s/

Gardiner, Kamya & Associates, P.C.
October 26, 2005




                                                                                     19
                                                      INTER-AMERICAN FOUNDATION
                                                               BALANCE SHEETS
                                                        As of September 30, 2005 and 2004
                                                                   (in dollars)

                                                                                                          2005        2004
Assets:
Intragovernmental:
   Fund balance with Treasury (Note 2)                                                                $ 36,606,103 $ 41,597,956
   Other                                                                                                    35,150
Total intragovernmental                                                                                 36,641,253 41,597,956

Account Receivable, net (Note 4)                                                                            20,000           -
General property, plant and equipment, net (Note 5)                                                           1,455      10,716
Grant advances and prepayments (Note 3)                                                                   3,801,176   3,933,182


Total assets                                                                                          $ 40,463,884 $ 45,541,854

Liabilities:
 Intragovernmental
    Accounts payable                                                                                  $         - $        127
    Other                                                                                                  251,729      28,103
 Total intragovernmental                                                                                   251,729      28,230
 Accounts payable                                                                                            66,759      74,541
 Other                                                                                                      721,452   1,187,993
Total liabilities (Note 6)                                                                                1,039,940   1,290,764
Net Position:
 Unexpended appropriations (Note 8)                                                                     16,062,880 16,425,074
 Cumulative results of operations (Note 8 and 12)                                                       23,361,064 27,826,016
 Total net position                                                                                     39,423,944 44,251,090
Total liabilities and net position                                                                    $ 40,463,884 $ 45,541,854




                                    The accompanying notes are an integral part of these financial statements.

                                                                                                                                  20
                                            INTER-AMERICAN FOUNDATION
                                                STATEMENTS OF NET COST
                                        For the years ended September 30, 2005 and 2004
                                                          (in dollars)

                                                                                             2005           2004
Program Costs:
 Intragovernmental gross costs                                                            $ 2,608,314    $ 1,927,473
Gross costs with the public                                                                 24,068,685     22,557,743
Total net cost of operations (Note 9)                                                     $ 26,676,999   $ 24,485,216




                           The accompanying notes are an integral part of these financial statements.




                                                                                                                        21
                                                           INTER-AMERICAN FOUNDATION
                                                    STATEMENTS OF CHANGES IN NET POSITION
                                                     For the years ended September 30, 2005 and 2004
                                                                        (in dollars)

                                                              2005                           2005                        2004                    2004
                                                           Cumulative                                                 Cumulative
                                                             Results                     Unexpended                     Results              Unexpended
                                                          of Operations                 Appropriations               of Operations           Appropriations

Beginning Balances                                       $      27,826,016          $         16,425,074             $   23,266,943          $ 18,097,429

Budgetary Financing Sources: 


Appropriations received                                                   -                   18,000,000                         -            $ 16,334,000 

Other adjustments (recissions, 

etc)                                                                      -                     (916,795)                        -               (668,814)


 Appropriations used                                            17,445,399                   (17,445,399)                17,337,541           (17,337,541)

 Nonexchange revenue –

 SPTF Collections                                                4,440,576                              -                11,402,562                     -

Donations and forfeitures of cash and
cash equivalents                                                     75,000                             -                    50,000                     -
                                                                                                                                                        -
Other Financing Sources:                                                  -                             -                         -                     -
Imputed financing from costs                                                                                                       .
absorbed by others (Note 11)                                       251,072                            -                     254,186                     -
Total Financing Sources                                         22,212,047                      (362,194)                29,044,289             (1,672,355)


Net Cost of Operations from SPTF (Note 12)                       8,776,319                              -                 6,858,007                     -
Net Cost of Operations from
Gift Fund                                                            94,311                             -                    78,345                     -
Net Cost of Operations from
Appropriations                                                  17,806,369                              -                17,548,864                     -

Total Net Cost of Operations (Note 9)                           26,676,999                              -                24,485,216                     -
Ending Balances                                          $      23,361,064          $         16,062,880             $   27,826,016           $ 16,425,074




                                        The accompanying notes are an integral part of these financial statements.

                                                                                                                                       22

                                                 INTER-AMERICAN FOUNDATION
                                           STATEMENTS OF BUDGETARY RESOURCES
                                            For the years ended September 30, 2005 and 2004
                                                               (in dollars)

                                                                                                          2005        2004
Budgetary Resources:
 Budget authority
   Appropriations received                                                                   $      18,000,000    $ 16,334,000
 Unobligated balance:
   Beginning of period                                                                               13,400,058      9,945,886
 Spending authority from offsetting collections:
   Earned
     Collected                                                                                       4,515,576      11,452,562
   Subtotal                                                                                         35,915,634      37,732,448
 Recoveries of prior year obligations
   Actual                                                                                             1,397,453        364,429
 Permanently not available
   Cancellations of expired and no-year accounts                                                      (772,795)    (572,441)
   Pursuant to Public Law                                                                             (144,000)     (96,371)
 Total Budgetary Resources                                                                   $      36,396,292 $ 37,428,065

Status of Budgetary Resources:
 Obligations incurred
    Direct
     Category A                                                                              $        7,437,843 $ 15,464,041
     Category B                                                                                      18,227,097    8,563,966
    Subtotal                                                                                         25,664,940   24,028,007
Unobligated balance
    Apportioned
     Balance, currently available                                                                    5,296,565       1,327,321
    Unobligated balances not available                                                                      -       12,072,737
    Other                                                                                            5,434,787              ­
    Total status of budgetary resources                                                      $      36,396,292    $ 37,428,065
Relationship of Obligations to Outlays:
 Obligated balance, net, beginning of period                                                  $     28,197,898    $ 28,505,455
 Obligated balance, net, end of period
     Undelivered orders                                                                      $     (25,109,342) $ (27,166,027)
     Accounts payable                                                                        $        (765,410) $ (1,031,871)
 Outlays
     Disbursements                                                                                  26,590,633      23,971,135
     Collections                                                                                    (4,515,576)    (11,452,564)
     Subtotal                                                                                       22,075,057      12,518,571
 Les: Offsetting receipts                                                                                   -               -
Net Outlays                                                                                   $     22,075,057    $ 12,518,571




                             The accompanying notes are an integral part of these financial statements.




                                                                                                                                  23
                                                  INTER-AMERICAN FOUNDATION
                                                    STATEMENTS OF FINANCING
                                             For the years ended September 30, 2005 and 2004
                                                                 (in dollars)

                                                                                                      2005               2004
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations incurred                                                                           $   25,664,940       $ 24,028,007
 Less: Spending authority from offsetting collections and recoveries                                (5,913,029)       (11,816,993)
Obligations net of offsetting collections and recoveries                                            19,751,911         12,211,014
Other Resources
 Donations and forfeitures of property                                                                  75,000            50,000
 Imputed financing from costs absorbed by others                                                      251,072           254,186
 Other (Note 12)                                                                                     4,440,576        11,402,562
Net other resources used to finance activities                                                       4,766,648        11,706,748

                Total resources used to finance activities                                          24,518,559        23,917,762
Resources Used to Finance Items Not Part of the Net Cost of Operations
 Change in budgetary resources obligated for goods, services and benefits ordered but not yet
 provided                                                                                            2,153,541           552,617

Total Resources Used to Finance the Net Cost of Operations                                          26,672,100        24,470,379

Components of the Net Cost of Operations that will not Require or Generate Resources in the
Current Period:
 Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                                                      15,638           9,438
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                              9,261           5,399
 Other                                                                                                    (20,000)             -
Total components of Net Cost of Operations that will not require or generate                              (10,739)          5,399
reso rces
              Total components of Net Cost of Operations that will not require or
              generate resources in the current period                                                      4,899         14,837

                Net Cost of Operations (Note 9)                                                 $ 26,676,999         $ 24,485,216




                             The accompanying notes are an integral part of these financial statements.




                                                                                                                                     24
                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

The financial statements have been prepared to report the financial position, net cost of operations,
changes in net position, status and availability of budgetary resources, and the reconciliation
between proprietary and budgetary accounts of The Inter-American Foundation (IAF). The
statements are a requirement of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, the Accountability of Tax Dollars Act of 2002 and the Office
of Management and Budget (OMB) Bulletin Number 01-02, Audit Requirements for Federal
Financial Statements. They have been prepared from, and are fully supported by, the books and
records of IAF in accordance with the hierarchy of accounting principles generally accepted in the
United States of America, standards approved by the principals of the Federal Accounting
Standards Advisory Board (FASAB), OMB Circular A-136, Form and Content of Agency
Financial Statements and IAF accounting policies which are summarized in this note. These
statements, with the exception of the Statement of Budgetary Resources, are different from
financial management reports, which are also prepared pursuant to OMB directives that are used
to monitor and control IAF’s use of budgetary resources.

The statements consist of the Balance Sheet, Statement of Net Cost, Statement of Changes in Net
Position, Statement of Budgetary Resources, Statement of Financing, and the Statement of
Custodial Activity. In accordance with OMB Circular A-136, the financial statements and
associated notes are presented on a comparative basis. Unless specified otherwise, all dollar
amounts are presented in dollars.

B. Reporting Entity

IAF, a U.S. government corporation, was established pursuant to part IV of the Foreign Assistance
Act of 1969 (22 U.S.C. 290f (a)). IAF provides grants to help non-governmental and community-
based organizations in Latin America and the Caribbean implement their own ideas for
development and poverty reduction.

The management of IAF is vested in a nine-person Board of Directors appointed by the President
of the United States. Six Board members are drawn from the private sector and three from among
officers or employees of agencies of the U.S. Government concerned with inter-American
activities. The Board appoints IAF’s president who acts as the chief executive officer.

C. Budgets and Budgetary Accounting

Congress enacts appropriations to permit IAF to incur obligations for authorized purposes. In
fiscal years 2005 and 2004, IAF was accountable for Social Progress Trust Fund (SPTF), Gift
Fund, and General Fund appropriations. IAF recognizes budgetary resources as assets when cash
(funds held by the U.S. Treasury) is made available through the Department of Treasury General
Fund warrants and transfers from the Inter-American Development Bank (IDB).



                                                                                             25

                            INTER-AMERICAN FOUNDATION 

                                Notes to Financial Statements 

                      For the years ended September 30, 2005 and 2004 


Note 1. Summary of Significant Accounting Policies (continued)

D. Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the accrual
method, revenues are recognized when earned and expenses are recognized when liabilities are
incurred, without regard to receipt or disbursement of cash. Budgetary accounting facilitates
compliance with legal constraints and controls over the use of federal funds.

To assist OMB in recommending and publishing comprehensive accounting standards and
principles for agencies of the Federal Government, the Secretary of the Treasury, the Comptroller
of the United States, the Director of OMB, and the Joint Financial Management Improvement
Program (JFMIP) established the Federal Accounting Standards Advisory Board (FASAB) in
1990. The American Institute of Certified Public Accountants (AICPA) Council designated
FASAB as the accounting standards authority for Federal government entities.

E. Revenue and Other Financing Sources

IAF’s grant program is funded by appropriation from the budget of the United States, agreement
with the Inter-American Development Bank covering the SPTF, and donations from the private
sector. No-year appropriations remain available until expended, while multi-year appropriations
are available for the period prescribed by the applicable statute. Appropriations are used, within
statutory limits, for programmatic, operating and capital expenditures for essential personal
property. Appropriations are recognized as revenues at the time the related program or
administrative expense are incurred. Appropriations expended for capitalized property and
equipment are recognized as expense when an asset is consumed in operations.

IAF has an agreement with the IDB to receive funds from the SPTF to finance part of IAF’s grant
program. The IDB is an international financial organization established to promote the economic
and social development of member countries. The United States’ participation in IDB is
authorized and governed by the Inter-American Development Bank Act (22 U.S.C. 283). Within
IDB, the United States established the SPTF in 1961 and provided appropriations to SPTF through
1964. IDB was designated as the administrator for the SPTF and committed the original SPTF
appropriations to loans. Repayments of these loans are recycled by the IDB in accordance with
the original agreement and subsequent provision for additional loans, technical cooperation
programs, and financing of the Inter-American Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, IDB provides funds to
finance social development projects. These funds are made available in U.S. dollars upon request
by IAF, subject to denomination availability and exchange controls. In 2002, the SPTF agreement
was amended to make available all remaining funds until exhausted.




                                                                                          26

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


IAF recognizes as an imputed financing source the amount of accrued pension and post-retirement
benefit expenses for current employees paid on our behalf by the Office of Personnel Management
(OPM).

F. Taxes

IAF, as a Federal entity, is not subject to federal, state or local income taxes, and, accordingly, no
provision for income taxes has been recorded in the accompanying financial statements.

G. Fund Balances with Treasury

The U.S. Treasury processes cash receipts and disbursements. Funds with the Department of the
Treasury primarily represent appropriated funds and SPTF collections that are available to pay
current liabilities and finance authorized purchase commitments and SPTF grants. IAF does not
maintain cash in commercial bank accounts or foreign currency balances. Foreign currency
payments are made either by Treasury or the Department of the State and are reported by IAF in
U.S. dollar equivalents. See Note 2 for additional information.

H. Accounts Receivable

Accounts receivable consists of amounts owed to IAF by other Federal agencies and the public.
Amounts due from Federal agencies are considered fully collectible. Accounts receivable from
the public include reimbursements from employees. An allowance for uncollectible accounts
receivable from the public is established when either (1) based upon a review of outstanding
accounts and the failure of all collection efforts, management determines that collection is unlikely
to occur considering the debtor’s ability to pay, or (2) an account for which no allowance has been
established is submitted to the Department of the Treasury for collection, which takes place when
it becomes 180 days delinquent. See Note 4 for additional information.

I. Advances and Prepayments

Advance payments are generally prohibited by law. There are some exceptions, such as
reimbursable agreements, subscriptions and payments to contractors and employees. Payments
made in advance of the receipt of goods and services are recorded as advances or prepaid charges
at the time of prepayment and recognized as expenses when the related goods and services are
received.

J. General Property, Plant, and Equipment, Net

IAF’s property, plant and equipment is recorded at original acquisition cost and is depreciated
using the straight-line method over the estimated useful life of the asset. Major alterations and
renovations are capitalized, while maintenance and repair costs are charged to expense as
incurred. IAF’s capitalization threshold is $50,000 for individual purchases and $500,000 for bulk
purchases. The useful life classifications for capitalized assets are as follows:



                                                                                              27

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


                               Description                   Useful Life (years)
                   ADP equipment                                     3
                   Office furniture and equipment                    10


K. Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by IAF as a result of
transactions or events that have already occurred. No liability can be paid, however, absent an
appropriation or SPTF funding. Liabilities for which an appropriation has not been enacted or
SPTF funds received are, therefore, classified as not covered by budgetary resources. There is no
certainty that the appropriation will be enacted. Additionally, the Government, acting in its
sovereign capacity, can abrogate liabilities. Liabilities not covered by budgetary resources on the
Balance Sheets are equivalent to amounts reported as Components requiring or generating
resources on the Statement of Financing.

L. Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts payable.

M. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance
in the accrued leave account is adjusted to reflect current pay rates. Liabilities associated with
other types of vested leave, including compensatory, restored leave, and sick leave in certain
circumstances, are accrued at year-end, based on latest pay rates and unused hours of leave.
Funding will be obtained from future financing sources to the extent that current or prior year
appropriations are not available to fund annual and other types of vested leave earned but not
taken. Nonvested leave is expensed when used.

N. Retirement Plans

IAF’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employees’ Retirement System (FERS). FERS was established by the enactment of Public Law
99-335. Pursuant to this law, FERS and Social Security automatically cover most employees hired
after December 31, 1983. Employees hired before January 1, 1984 elected to join either FERS and
Social Security or remain in CSRS.

IAF recognizes the imputed cost of pension and other retirement benefits during the employees’
active years of service. OPM actuaries determine pension cost factors by calculating the value of
pension benefits expected to be paid in the future and communicates these factors to IAF for
current period expense reporting. OPM also provides information regarding the full cost of health
and life insurance benefits. IAF recognized the offsetting revenue as imputed financing sources to
the extent these expenses will be paid by OPM.



                                                                                             28

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and IAF makes a mandatory
1 percent contribution to this account. In addition, IAF makes matching contributions, ranging
from 1 to 4 percent, for FERS eligible employees who contribute to their TSP accounts. In
accordance with Federal employee benefit policies, matching contributions are not made to the
TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, IAF remits the employer’s share of
the required contribution. IAF's contribution to employee pension plan were $394,423 for fiscal
year 2005 and $416,115 for fiscal year 2004. In addition, IAF costs for health and life insurance
were $370,326 for fiscal year 2005 and $339,948 for fiscal year 2004.

IAF does not report on its financial statements information pertaining to the retirement plans
covering its employees. Reporting amounts such as plan assets, accumulated plan benefits, and
related unfunded liabilities, if any, is the responsibility of the OPM.

O. Grant Disbursements and Administrative Expenses

Grant disbursements include payments in advance of performance under contractual obligations.
Evidence of performance is determined by review of periodic expenditure reports. All IAF
expenditures for grants over $35,000 are independently verified using IAF’s audit guidelines.
IAF’s administrative expenses are funded solely by appropriated funds.

P. Use of Estimates

Management has made certain estimates and assumptions when reporting assets, liabilities,
revenue, and expenses, and in the note disclosures. Actual results could differ from these
estimates.

Q. Imputed Cost/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities. IAF
recognized imputed costs and financing sources in fiscal years 2005 and 2004 to the extent
directed by OMB.

R. Non-Entity Assets and Liabilities

IAF did not hold any Non-Entity assets or liabilities as of September 30, 2005 and 2004.




                                                                                             29

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


S. Contingencies

Liabilities are deemed contingent when the existence or amount of the liability cannot be
determined with certainty pending the outcome of future events. IAF recognizes liabilities, in the
accompanying balance sheet and statement of net cost, when it is both probable and can be
reasonably estimated. IAF discloses contingent liabilities in the notes to the financial statements
when the conditions for liability recognition are not met or when a loss from the outcome of future
events is more than remote. In some cases, once losses are certain, payments may be made from
the Judgment Fund maintained by the U.S. Treasury rather than from the amounts appropriated to
IAF for agency operations. Payments from the Judgment Fund are recorded as an “Other
Financing Source” when made. There are no contingencies that require disclosure.

T. Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at the
beginning of the subsequent fiscal year. The account in which the annual authority is placed is
called the expired account. For five fiscal years, the expired account is available for expenditure
to liquidate valid obligations incurred during the unexpired period. Adjustments are allowed to
increase or decrease valid obligations incurred during the unexpired period but not previously
reported. At the end of the fifth expired year, the expired account is cancelled.

Note 2. Funds Balance with Treasury

Entity fund balances include amounts that are available to pay liabilities and to finance authorized
purchase and grant commitments. Restricted unobligated fund balances represent the amount of
appropriations for which the period of availability for obligation has expired. These balances are
available for upward adjustments of obligations incurred only during the period for which the
appropriation was available for obligation or for paying claims attributable to the appropriations.

                                                           2005              2004
            Fund Balances:
             Appropriated fund                       $    15,043,704 $       15,675,996
             Gift fund                                        75,000             35,661
             Social progress trust fund (SPTF)            21,487,399         25,886,299
            Total entity funds                       $    36,606,103 $       41,597,956

            Status of Fund Balance with Treasury:
             Unobligated balance
              Available                           $        5,296,565 $        1,327,321
              Unavailable                                  5,434,787         12,072,737
            Obligated balance not yet disbursed           25,874,751         28,197,898
            Total                                 $       36,606,103 $       41,597,956




                                                                                            30

                            INTER-AMERICAN FOUNDATION 

                                Notes to Financial Statements 

                      For the years ended September 30, 2005 and 2004 


Note 3. Advances and Prepayments

Grant payments are recorded as an advance and amortized over the estimated useful period
covered by the agreement. First time grant payments are amortized over an eight-month period.
Subsequent payments are amortized over a six-month period. Prepayments are also made to select
government agencies and vendors in advance of receiving the goods or service. Advances and
prepayments are detailed below:

                                                               2005          2004
         Advances and prepayments
          Prepayments other than grant advances       $           34,170 $      45,293
          Grant advances                                       3,767,006     3,887,889
         Total advances and prepayments               $        3,801,176 $   3,933,182

Note 4. Accounts Receivable

Accounts receivable balances as of September 30, 2005 and 2004 were $20,000 and $0,
respectively. Accounts receivable from the public are shown net of allowances for uncollectible
amounts as of September 30, 2005 and 2004, respectively.

Note 5. Property, Plant and Equipment

The balance of Property, Plant, and Equipment is as follows:

           Schedule of Property, Plant and Equipment as of September 30, 2005
                                      Acquisition   Accumulated           Net
                                         Cost       Depreciation     Book Value
           Description
            ADP equipment           $       29,424 $        29,424 $              ­
            Office furniture                41,072          39,617            1,455
           Total                    $       70,496 $        69,041 $          1,455

           Schedule of Property, Plant and Equipment as of September 30, 2004
                                      Acquisition   Accumulated           Net
                                         Cost       Depreciation     Book Value
           Description
            ADP equipment           $     127,893 $        127,893 $             ­
            Office furniture              106,077           95,361          10,716
           Total                    $     233,970 $        223,254 $        10,716




                                                                                         31

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


Note 6. Liabilities

The accrued liabilities for IAF are comprised of program expense accruals, payroll accruals, and
unfunded annual leave earned by employees. Program expense accruals represent expenses that
were incurred prior to year-end but were not paid. Similarly, payroll accruals represent payroll
expenses that were incurred prior to year-end but were not paid.

         Schedule of liabilities
                                                                 2005          2004
         Liabilities covered by budgetary resources
          Intragovernmental
            Accounts payable                                 $         - $          127
            Payroll taxes payable                                 26,151         26,611
            Program expenses                                     225,578          1,492
          Total intragovernmental                                251,729         28,230
          Program expenses
            Personnel benefits/metro pool                               -        15,000
            Rent                                                    5,220        22,000
            Staff travel, training, printing, equipment
            maintenance, supplies, non-capt. equipment            16,649         35,452
            Postal, freight                                        4,798              ­
            Maintenance of equipment                               8,448                ­
            Staff travel, training, printing,
            communications and mail services                       6,489                ­
            Supplies & non-capitalized equipment                  12,745               ­
            Program conference support                                 -        251,000
            Grant monitoring services (DVs)                        5,327        203,000
            Translations                                           3,027                 ­
            Local advisory service contracts for grantees        115,413        105,000
            Research on corporate responsibility                  46,884          42,000
            Grant audits                                          39,320          56,000
            Misc. services, program                                6,619          74,000
            Misc. services, program support                        7,309           7,977
            Accts payable                                         66,759          74,541
            Minus GPO                                                  -         (1,492)
          Total program expenses                                 345,007        884,478
           Payroll accrual                                       164,332        117,509
           Payroll taxes payable                                   4,342          1,654
          Total liabilities covered by budgetary resources       765,410      1,031,871
          Liabilities not covered by budgetary resources
           Unfunded leave                                        274,530     258,893
          Total liabilities                                  $ 1,039,940 $ 1,290,764




                                                                                             32

                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


Note 6. Liabilities (continued)

           Schedule of liabilities (continued)
                                                                   2005          2004
           Reconciliation of other non governmental
           liabilities:
             Accruals shown above                              $   278,248 $   809,937
             Payroll accruals                                      164,332     117,509
             Payroll taxes payable                                   4,342       1,654
             Unfunded leave                                        274,530     258,893
           Total                                               $   721,452 $ 1,187,993

Note 7. Commitments and Contingencies

In the course of its grant-making activities, IAF has unliquidated grant obligations which, in the
absence of violations or cancellations of the grant agreements, will require disbursements.
Unliquidated grant obligations at September 30, 2005 and 2004 total approximately $22,714,000
and $25,250,000, respectively.

As of September 30, 2005 and 2004, there were no obligations due to canceled appropriations for
which there is a contractual commitment for payment.

Note 8. Net Position

The Inter-American Foundation’s net position is composed of unexpended appropriations and the
cumulative results of operations. Net position as of September 30, 2005 and 2004 consisted of the
following:

                                                        2005              2004
              Unexpended appropriations
               Unobligated
                 Available                        $       552,575 $        1,177,180
                 Unavailable                            1,784,296          2,353,246
               Undelivered orders                      13,726,009         12,894,648
              Total unexpended appropriation           16,062,880         16,425,074

              Cumulative results of operations         23,361,064         27,826,016
              Net position                        $    39,423,944 $       44,251,090




                                                                                          33

                            INTER-AMERICAN FOUNDATION 

                                Notes to Financial Statements 

                      For the years ended September 30, 2005 and 2004 


Note 8. Net Position (continued)

                                                        2005              2004
              Reconciliation to statement of budgetary resources
               Unobligated available
                  SPTF                            $      4,743,990 $         150,141
                  Appropriations                           552,575         1,177,180
                 Total unobligated available             5,296,565         1,327,321

                Unobligated unavailable
                   SPTF                                     3,650,491      9,719,491
                   Appropriations                           1,784,296      2,353,246
                 Total unobligated unavailable              5,434,787     12,072,737

              Reconciliation to statement of budgetary resources
              Undelivered orders (Less Advances)
                  SPTF                                 13,089,830         14,271,378
                  Donations                                75,000                  -
                  Appropriations                       11,944,512         12,894,649
                 Total undelivered orders         $    25,109,342 $       27,166,027

Note 9. Program Costs

Costs by major budgetary object classification as of September 30, 2005 and 2004 are as follows:

     Budgetary object classifications                              2005           2004

       Personnel compensation                                  $    3,343,431 $    3,442,628
       Personnel benefits other than pension, health, and
       life insurance                                                 355,113        351,447
       Pension – CSRS                                                  95,123        114,139
       Pension – FERS                                                 299,300        301,976
       Health insurance                                               364,489        333,565
       Life insurance                                                   5,837          6,383
       Travel and transportation of persons                           461,069        390,077
       Transportation of things                                        26,258          9,248
       Rents, communication, utilities and misc. charges              832,799        719,958
       Printing and reproduction                                      374,617         73,946
       Other services                                               3,354,937      3,946,359
       Supplies and materials                                          48,653         35,727
       Equipment                                                       94,654         15,997
       Grants, subsidies, and contributions                        17,020,719     14,743,766
          Total                                                $   26,676,999 $   24,485,216




                                                                                          34
                             INTER-AMERICAN FOUNDATION 

                                 Notes to Financial Statements 

                       For the years ended September 30, 2005 and 2004 


Note 10. Liabilities Not Covered By Budgetary Resources

The liabilities on IAF’s Balance Sheet as of September 30, 2005 and 2004, include liabilities not
covered by budgetary resources, which are liabilities for which congressional action is needed
before budgetary resources can be provided. Although future appropriations to fund these
liabilities are likely and anticipated, it is not certain that appropriations will be enacted to fund
these liabilities. Liabilities not covered by budgetary resources consist entirely of unfunded leave.
Unfunded leave balances are $274,530 and $258,893 as of September 30, 2005 and 2004,
respectively.

Note 11. Imputed Financing Sources

IAF recognizes as imputed financing the amount of accrued pension and post-retirement benefit
expenses for current employees. The assets and liabilities associated with such benefits are the
responsibility of the administering agency, the OPM. For the fiscal years ended September 30,
2005 and 2004, respectively, imputed financing was $251,072 and $254,186, respectively.

Note 12. Financing Sources - SPTF

The Statement of Financing reconciles the financial Net Cost of Operations with the Statement of
Budgetary Resources. IAF reports SPTF funds obtained from the IDB as offsetting collections
earned. IAF had no exchange revenue in fiscal year 2005 or 2004. For fiscal year 2005 and 2004,
IAF received $4,440,576 and $11,402,562 respectively, from the IDB, which was reported on its
SF-133 as funds received from SPTF collections.

                                                               2005              2004
         SPTF cumulative results
          SPTF beginning balance                         $    27,848,749 $      23,304,194
          SPTF funds received                                  4,440,576        11,402,562
          Less: SPTF asset transfer                              (10,715)               -
          Less: SPTF funds expended                           (8,776,319)       (6,858,007)
         SPTF fund carry forward                              23,502,291        27,848,749

         Donations cumulative results
          Donations beginning balance                             98,860           127,205
          Donations received                                      75,000            50,000
          Less: Donations expended                               (94,311)          (78,345)
         Donations carry forward                                  79,549            98,860

         Total SPTF and Donations                             24,581,840        27,947,609
          Less: Unfunded leave and accumulated
            deprecation from appropriated funds                 (200,776)         (121,593)
         Total cumulative results of operations
          for SPTF, Gift and Appropriated funds           $   23,381,064    $ 27,826,016



                                                                                              35

                            INTER-AMERICAN FOUNDATION 

                                Notes to Financial Statements 

                      For the years ended September 30, 2005 and 2004 



Note 13. 	Explanation of Differences Between the Statement of Budgetary Resources and the
          Budget of the United States Government

The 2007 Budget of the United States Government, with the Actual Column completed for fiscal
year 2005, has not yet been published as of the date of these financial statements. The Budget is
currently expected to be published and delivered to Congress in early February 2006. The 2006
Budget of the United States Government, with the Actual Column completed for fiscal year 2004,
has been reconciled.

Note 14. 	Operating Lease

IAF occupies office space under a lease agreement, which is accounted for as an operating lease.
IAF entered into a lease agreement that will expire on March 31, 2012. Lease payments are
increased annually based on IAF’s proportionate share of the building’s operating expenses and
real estate taxes. The new agreement allows IAF an abatement credit in lieu of a build-out
allowance that will be deducted from the monthly rent for the first 26 months of the lease. Total
net rental expense for fiscal years 2005 and 2004 were $576,030 and $589,046, respectively.
Below is a schedule of future payments for the term of the lease:

                          Schedule of future operating lease payments

                            Fiscal Year                    Amount

                            FY2005                     $      576,157
                            FY2006                            590,186
                            FY2007                            604,566
                            FY2008                            619,305
                            FY2009                            634,413
                            Thereafter                        649,898
                            Total future payments      $    3,674,525




                                                                                          36

      Independent Auditors’ Report on Internal Control over Financial Reporting


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the year ended September 30, 2005, and have issued
our report thereon dated October 26, 2005. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and, Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the IAF’s internal control over financial
reporting by obtaining an understanding of the IAF’s internal control, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 01-02. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations. The objective of our audits was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be reportable
conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control that, in our judgment, could
adversely affect the IAF’s ability to record, process, summarize, and report financial data
consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.




                                                                                           37
Because of inherent limitations in internal controls, misstatements, losses, or non compliance
may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we consider to be material weaknesses as defined
above.

In addition, with respect to internal controls related to performance measures reported in the
Management Discussion and Analysis (MD&A), we obtained an understanding of the design
of significant internal controls relating to the existence and completeness assertions, as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and accordingly, we do
not provide an opinion on such controls.

This report is intended solely for the information and the use of management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency
for International Development, the Office of Management and Budget (OMB), and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.
October 26, 2005




                                                                                           38
       Independent Auditors' Report on Compliance with Laws and Regulations


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2005, and have issued
our report thereon dated October 26, 2005. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and, Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

The management of the IAF is responsible for complying with laws and regulations
applicable to the agency. As part of obtaining reasonable assurance about whether the
financial statements are free of material misstatement, we performed tests of the IAF’s
compliance with certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin No. 01-02, including the
requirements referred to in the Federal Financial Management Improvement Act (FFMIA) of
1996. We limited our tests of compliance to these provisions and we did not test compliance
with all laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph exclusive of FFMIA disclosed no instances of noncompliance that are required to
be reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at
the transaction level. The Administrative Resource Center of the Franchise Fund, Bureau of
Public Debt, performs the accounting and reporting functions for the IAF. We are not the
auditors of the Franchise Fund and did not perform tests of compliance with the FFMSR
using the implementation guidance included in Appendix D of OMB Bulletin No. 01-02.

Those tests were performed by other auditors whose report has been furnished to us. Our
report, insofar as it relates to FFMSR compliance, is based solely on the report of the other
auditors.



                                                                                          39
The report of the other auditors on the substantial compliance of the IAF with the
requirements of FFMSR disclosed no instances of substantial con compliance with the
FFMSR. Our audit tests disclosed no instances in which IAF did not substantially comply
with Federal accounting standards and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency
for International Development, the Office of Management and Budget (OMB), and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.
October 26, 2005




                                                                                           40
